 INSPEGrOR GENERAL

                                                                             IG-W-021




  UNITED STATES INTERNATIONAL TRADE COMMISSION

                                WASHINGTON. D.C. 20436

April I, 1999

MEMORANDUM

TO               Director, Office of Information Services

FROM             Inspector GenertMtd:           ~d~~
SUBJECT          Inspection Report 03-99, Review ofthe Electronic Dockets Information
                 System's Security

The Office of Inspector General (OIG) initiated this mspecuon In March 1998 at the
request of the Director of the Office of Information Services (OIS) The Director OIS
requested this inspection because the Commission plans to implement a new system
commonly referred to as EDIS On-Line.

EDIS On-Line is a component of the Electronic Dockets Information System (EDIS)
which the Secretary of the Commission uses to manage the Intake and dissemination of
Commission public and non-public documents. EDIS On-Line will allow the general
public (external users) to access the pubic documents contained in the docket via the
Internet while allowing Commission employees (internal users) access to public and non-
public documents in the docket via the Commission's Intranet.

The objective was to confirm that external users are restricted to public areas ofthe EDIS
On-Line system and identify potential security risks. We found that. within the limited
parameters of this assessment, external users were properly limited to information in the
public directories. However, the testing revealed several potential security-related
considerations that would enhance the security of ED IS On-Line.

The OIG contracted with the Computer Sciences Corporation (CSC) to conduct a
vulnerability assessment of ED IS On-Line. In March 1999, a CSC engineer inspected
the network architecture and configuration of EOIS On-Line. and from its commercial
laboratory site in Maryland, used proprietary scanning tools and other auxiliary tools to
perform several tests on EDIS On-Line. The testing was comprised of initial port
scanning, Hydra vulnerability scanning. access control testing, and web site mapping.

CSC suggested changes that would enhance the security ofEDISOn-Line. These include
limiting the number ofunsuccessful authentication attempts, separating public and non-
public data on separate servers, increasing access controls, upgrading a software no
longer in production to an active one, considering the use of a commercial product to
control access to information, implementing a checking mechanism for all external
variables, and limiting access to internal printers to internal users.

A drali ofthis report was sent to the Director OIS on March 22,1999. The DirectorOIS
implemented three of CSC's suggestions immediately on limiting authentication
attempts, checking external variables and limiting printer access. He is planning to
incorporate the suggestions on separating data and purchasing sotiware in active
development as a part of planned upgrades. He is evaluating the feasibility of the
remaining two suggestions.

The ahove procedures constitute an inspection made in accordance with the President's
Council on Integrity and Efficiency Standards for Inspections.

If you have any questions, please contact me at 205-2210

Attachment

ce. Commission




                                          2
